Office of Audits and Evaluations
Report No. AUD-12-007


Material Loss Review of Bank of Choice,
Greeley, Colorado




                                   February 2012
                                    Executive Summary

                                    Material Loss Review of Bank of Choice,
                                    Greeley, Colorado
                                                                                    Report No. AUD-12-007
                                                                                            February 2012

Why We Did The Audit
Section 38(k) of the Federal Deposit Insurance (FDI) Act, as amended by the Dodd-Frank Wall Street
Reform and Consumer Protection Act (the Financial Reform Act), provides, in general, that if the Deposit
Insurance Fund (DIF) incurs a material loss with respect to an insured depository institution, the Inspector
General of the appropriate federal banking agency shall prepare a report to that agency, reviewing the
agency’s supervision of the institution. The Financial Reform Act amends section 38(k) by increasing the
Material Loss Review (MLR) threshold from $25 million to $200 million for losses that occur for the
period January 1, 2010 through December 31, 2011. The FDI Act requires that the report be completed
within 6 months after it becomes apparent that a material loss has been incurred.

On July 22, 2011, the Colorado Division of Banking (CDB) closed Bank of Choice (BOC), and the FDIC
was appointed receiver. On August 17, 2011, the FDIC notified the Office of Inspector General (OIG)
that BOC’s total assets at closing were $979.4 million and that the estimated loss to the DIF was
$213.6 million. The FDIC OIG engaged KPMG LLP (KPMG) to conduct an MLR of BOC. The audit
objectives were to (1) determine the causes of BOC’s failure and the resulting material loss to the DIF and
(2) evaluate the FDIC’s supervision of BOC, including implementation of the Prompt Corrective Action
(PCA) provisions of section 38.


Background
BOC represented the combination of three formerly separate and independent community banks that were
acquired by the same parent holding company—Bank of Choice Holding Company (BOCHC), Greeley,
Colorado—during the period 2004 through 2006. These three banks were:

       Weld County Bank, Evans, Colorado (Evans). Evans was acquired by BOCHC on July 1, 2004.
        Upon acquisition, the bank’s name was changed to Bank of Choice.

       Colonial Bank, Denver, Colorado (Colonial). Colonial was acquired by BOCHC on
        November 1, 2005.

       The First National Bank of Arvada, Arvada, Colorado (Arvada). Arvada was acquired by
        BOCHC on March 17, 2006. Arvada converted to a state non-member bank when it was acquired
        by BOCHC, and the institution’s name was changed to Bank of Choice Colorado.

Subsequent to the acquisitions, BOCHC merged Colonial into Arvada in November 2006 and Evans into
Arvada in September 2008. The combined organization then adopted the name of Bank of Choice,
Greeley, Colorado.

We reviewed the business operations and supervision of Evans, Colonial, and Arvada (referred to herein
as BOC’s predecessor banks) as part of the MLR because all three banks were under the common
ownership of BOC’s parent holding company, their key business strategies were generally determined on
a consolidated basis, and it was the combined assets of the three banks that formed BOC in 2008.
Notably, the President of Evans, who also served as the bank’s chief executive officer and Chairman of
the Board (COB), became the COB of BOCHC, Arvada, and Colonial. This individual, who


                                  To view the full report, go to www.fdicig.gov
                                     Material Loss Review of Bank of Choice,
   Executive Summary
                                     Greeley, Colorado
                                                                                     Report No. AUD-12-007
                                                                                             February 2012


subsequently became the President of BOC, led the acquisitions and the banks’ focus on commercial real
estate (CRE) and acquisition, development, and construction (ADC) lending. BOC operated 17 branches,
and the majority of the institution’s deposits were within the Denver and Greeley metropolitan markets.


Audit Results
Causes of Failure and Material Loss

BOC failed primarily because the Boards of Directors (Boards) and management of BOC and its
predecessor banks did not effectively manage the risks associated with heavy concentrations in CRE and
ADC loans. Among other things, the Boards and management did not establish prudent CRE and ADC
loan concentration limits or maintain capital at levels that were commensurate with the risk in the banks’
loan portfolios. Lax lending practices also contributed to the asset quality problems that developed when
economic conditions in BOC’s lending markets deteriorated. BOC’s risk profile was further elevated by
its reliance on non-core funding sources, such as brokered deposits, large time deposits, and Federal
Home Loan Bank advances, which were used by BOC’s predecessor banks to support loan growth and
operations. These funding sources became restricted when BOC’s financial condition deteriorated,
straining the institution’s liquidity position.

During 2007, conditions in the Colorado real estate market began to decline. By year-end 2009, the
quality of BOC’s loan portfolio had deteriorated significantly, with the majority of problems centered in
CRE and ADC loans. Further deterioration occurred in 2010. The associated provisions for loan losses
depleted BOC’s earnings, eroded its capital, and strained its liquidity. The CDB closed BOC on
July 22, 2011 because the institution was unable to raise sufficient capital to support its operations.

The FDIC’s Supervision of Bank of Choice

The FDIC, in coordination with the CDB, provided ongoing supervisory oversight of BOC and its
predecessor banks through regular on-site examinations, visitations, and various offsite monitoring
activities. Through its supervisory efforts, the FDIC identified risks in the banks’ operations and brought
these risks to the attention of the institutions’ Boards and management through examination and visitation
reports, correspondence, and supervisory actions. Such risks included a lack of adequate risk
management practices pertaining to significant concentrations in CRE and ADC loans and reliance on
non-core funding sources, inadequate capital protection and liquidity levels, and adverse changes in the
local Colorado economy.

Like many other institutions that failed in recent years, BOC and its predecessor banks developed a
significant exposure to CRE and ADC loans at a time when the banks’ financial conditions and lending
markets were generally favorable. This exposure made the banks (and subsequently BOC) vulnerable to a
sustained downturn in the real estate market. In retrospect, a more forward-looking supervisory approach
to the risk profile and management practices at the predecessor banks during examinations conducted
from 2006 to 2008 may have been prudent considering their significant exposure to CRE and ADC loans
and the associated vulnerability to economic cycles, reliance on non-core finding sources to support loan
growth and operations, capital levels in some periods that were just above PCA thresholds for Well
Capitalized institutions despite an elevated risk profile, and inadequate responsiveness to repeated
examiner concerns regarding the banks’ risk management practices. Examiners became sharply critical of

                                 To view the full report, go to www.fdicig.gov
                                     Material Loss Review of Bank of Choice,
   Executive Summary
                                     Greeley, Colorado
                                                                                    Report No. AUD-12-007
                                                                                            February 2012


BOC’s risk management practices beginning with the November 2008 FDIC examination and issued joint
supervisory and enforcement actions in 2009 and 2010, respectively. However, by that time, the bank’s
lending markets were rapidly deteriorating, making remedial efforts difficult.

The FDIC has taken a number of actions to enhance its supervision program based on the lessons learned
from failures during the financial crisis. Such actions include instituting a training initiative for
examiners on forward-looking supervision and issuing additional supervisory guidance on CRE and ADC
concentrations and funds management practices.

Based on the supervisory actions taken with respect to BOC, the FDIC properly implemented the
applicable PCA provisions of section 38.


Management Response
Subsequent to the issuance of KPMG’s draft report, officials in the FDIC’s Division of Risk Management
Supervision (RMS) provided additional information for KPMG’s consideration, and KPMG revised its
report to reflect this information, as appropriate. On February 16, 2012, the RMS Director provided a
written response to a draft of this report. In the response, the RMS Director reiterated the causes of
failure and the supervisory activities described in the report. Further, RMS stated that it has recognized
the threat that institutions with high-risk profiles, such as BOC, pose to the DIF and issued to FDIC-
supervised institutions a 2008 Financial Institution Letter (FIL), entitled, Managing Commercial Real
Estate Concentrations in a Challenging Environment. This FIL re-emphasized the importance of robust
credit risk management practices for institutions with concentrated CRE exposures and set forth broad
supervisory expectations. Additionally, RMS issued a 2009 FIL, entitled, The Use of Volatile or Special
Funding Sources by Financial Institutions That are in a Weakened Condition. According to RMS, this
FIL heightened its supervision of institutions with aggressive growth strategies or excessive reliance on
volatile funding sources.




                                 To view the full report, go to www.fdicig.gov
Federal Deposit Insurance Corporation                                               Office of Audits and Evaluations
3501 Fairfax Drive, Arlington, VA 22226                                                  Office of Inspector General




DATE:                                     February 17, 2012

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Risk Management Supervision


                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Deputy Inspector General for Audits and Evaluations

SUBJECT:                                  Material Loss Review of Bank of Choice, Greeley, Colorado
                                          (Report No. AUD-12-007)


The subject final report is provided for your information and use. The report does not contain
recommendations, thus a response was not required. However, the Division of Risk
Management Supervision provided a written response on February 16, 2012. We incorporated
the response into Part II of the final report.

If you have questions concerning the report, please contact me at (703) 562-6352 or
Mark Mulholland, Assistant Inspector General for Audits, at (703) 562-6316. We appreciate the
courtesies extended to the Office of Inspector General and contractor staff.

Attachment
                           Table of Contents

Part I

   Report by KPMG LLP                                        I-1
   Material Loss Review, Bank of Choice, Greeley, Colorado

Part II

   OIG Evaluation of Management Response                     II-1

   Corporation Comments                                      II-2
      Part I

Report by KPMG LLP
                   Material Loss Review
                     Bank of Choice
                    Greeley, Colorado




Prepared for the
Federal Deposit Insurance Corporation
Office of Inspector General



KPMG LLP
1676 International Drive
McLean, VA 22102
                               Table of Contents

Executive Summary                                                              I-1


Why We Did the Audit                                                           I-4


Background                                                                     I-4


Causes of Failure and Material Loss                                            I-7
  Board and Management Oversight                                                I-7
  Growth Concentrated in CRE and ADC Lending                                    I-8
  Reliance on Non-core Funding Sources                                        I-12

The FDIC’s Supervision of Bank of Choice                                      I-14
  Supervisory History                                                         I-15
  Offsite Monitoring                                                          I-18
  Supervisory Response Related to Board and Management Oversight              I-20
  Supervisory Response Related to Growth Concentrated in CRE and ADC
    Lending                                                                   I-23
  Supervisory Response Related to Reliance on Non-core Funding Sources        I-24
  Implementation of PCA                                                       I-25
  Supervisory Lessons Learned                                                 I-28

Appendices
Objectives, Scope, and Methodology                                            I-31
Glossary of Terms                                                             I-35
Acronyms                                                                      I-39

Figures
1: BOCHC Acquisitions and Mergers, 2004 - 2008                                  I-5
2: Loan Composition of BOCHC’s Subsidiary Banks, September 30, 2006             I-9
3: Composition and Growth of Combined Loan Portfolios, 2005 - 2010              I-9
4: Evans Net Non-core Funding Dependence Ratio Compared to Peer Group         I-13

Tables
1: Selected Bank Financial Information, 2006 - 2010                             I-6
2: CRE and ADC Concentrations Compared to Peer Groups                         I-11
3: Total Risk-Based Capital Ratios Compared to Peer Group                     I-12
4: Summary of Funding Sources                                                 I-14
5: On-site Examinations and Visitations                                       I-16
6: Offsite Review History                                                     I-19
7: Examiner Comments on Key Risks                                             I-20
8: Examiner Comments Related to CRE and Concentrations, 2006 - 2011           I-23
9: Summary of Capital Level Categories for Colonial, Evans, Arvada, and BOC   I-26
                           KPMG LLP
                           1676 International Drive
                           McLean, VA 22102




February 17, 2012

Executive Summary

Stephen M. Beard
Deputy Inspector General for Audits and Evaluations
Federal Deposit Insurance Corporation
3501 Fairfax Drive
Arlington, VA 22226

Material Loss Review Report for Bank of Choice, Greeley, Colorado
Dear Mr. Beard:
The FDIC Office of the Inspector General (OIG) contracted with KPMG LLP (KPMG) to
conduct a material loss review (MLR) of the Bank of Choice (BOC or the bank), Greeley,
Colorado. This performance audit report details the results of our review. The objectives of
this performance audit were to (1) determine the causes of BOC’s failure and the resulting
material loss to the Deposit Insurance Fund (DIF) and (2) evaluate the FDIC’s supervision
of BOC, including the FDIC’s implementation of the Prompt Corrective Action (PCA)
provisions of Federal Deposit Insurance Act (FDI Act), section 38. Our report contains no
recommendations. Instead, as major causes, trends, and common characteristics of
institution failures are identified in MLRs, the FDIC OIG communicates those to FDIC
management for its consideration. As resources allow, the FDIC OIG conducts more
comprehensive reviews of specific aspects of the FDIC’s supervision program and makes
recommendations as warranted. A brief summary of the results of our review follows.

BOC represented the combination of three formerly independent community banks that
were acquired between 2004 and 2006 by the institution’s parent holding company—Bank
of Choice Holding Company (BOCHC), Greeley, Colorado. In the years following the
acquisitions, BOCHC merged all three banks into BOC. We included the three banks
(referred to herein as BOC’s predecessor banks) in the MLR because they were under the
common ownership of BOC’s parent holding company, their key business strategies were
generally determined on a consolidated basis, and it was the combined assets of the three
banks that ultimately formed BOC in 2008.
Causes of Failure
BOC failed primarily because the Boards of Directors (Boards) and management of BOC
and its predecessor banks did not effectively manage the risks associated with heavy
concentrations in Commercial Real Estate (CRE) and Acquisition, Development and
Construction (ADC) loans. Among other things, the Boards and management did not
establish prudent CRE and ADC loan concentration limits or maintain capital at levels that
                                                         I-1
                           KPMG LLP is a Delaware limited liability partnership,
                           the U.S. member firm of KPMG International Cooperative
                           (“KPMG International”), a Swiss entity.
were commensurate with the risk in the banks’ loan portfolios. Lax lending practices also
contributed to the asset quality problems that developed when economic conditions in
BOC’s lending markets deteriorated. BOC’s risk profile was further elevated by its reliance
on non-core funding sources, such as brokered deposits, large time deposits, and Federal
Home Loan Bank (FHLB) advances, which were used by BOC’s predecessor banks to
support loan growth and operations. These funding sources became restricted when BOC’s
financial condition deteriorated, straining the institution’s liquidity position.
Evaluation of Supervision
The FDIC, in coordination with the Colorado Division of Banking (CDB), provided ongoing
supervisory oversight of BOC and its predecessor banks through regular on-site
examinations, visitations, and various offsite monitoring activities. Through its supervisory
efforts, the FDIC identified risks in the banks’ operations and brought these risks to the
attention of the institutions’ Boards and management through examination and visitation
reports, correspondence, and supervisory actions. Such risks included a lack of adequate
risk management practices pertaining to the significant concentrations in CRE and ADC
loans and reliance on non-core funding sources, inadequate capital protection and liquidity
levels, as well as adverse changes in the local Colorado economy.

Like many other institutions that failed in recent years, BOC’s predecessor banks developed
a significant exposure to CRE and ADC loans at a time when the banks’ financial conditions
and lending markets were generally favorable. This exposure made the banks (and
subsequently BOC) vulnerable to a sustained downturn in the real estate market. In
retrospect, a more forward-looking supervisory approach to the risk profile and management
practices at BOC’s predecessor banks during earlier examinations may have been prudent.
A stronger supervisory tenor may have resulted in BOC’s predecessor banks implementing
stronger risk management practices, such as prudent limits on their CRE and ADC loan
concentrations and/or higher levels of capital, which could have better positioned BOC to
work through the loan deterioration that developed as the Colorado real estate market
deteriorated. In addition, it is our view that while earlier examination ratings reflected the
financial condition of BOC’s predecessor banks, the ratings did not appear to fully reflect
the risks present at that time. Examiners became sharply critical of BOC’s risk management
practices beginning with the November 2008 FDIC examination and issued joint
supervisory and enforcement actions in 2009 and 2010, respectively. However, by that
time, the bank’s lending markets were rapidly deteriorating, making remedial efforts
difficult.

The FDIC informed us that it has taken a number of actions to increase its supervisory
attention to banks with risk profiles similar to BOC. Such actions include instituting a
training initiative for examiners on forward-looking supervision and issuing additional
supervisory guidance on CRE and ADC concentrations and funds management practices.
Prompt Corrective Action
Section 38 of the FDI Act, Prompt Corrective Action, establishes a framework of mandatory
and discretionary supervisory actions pertaining to all insured depository institutions. Based
on the supervisory actions taken, the FDIC properly implemented the applicable PCA
                                             I-2
provisions of section 38 in a timely manner. BOC was considered Well Capitalized or
Adequately Capitalized for PCA purposes until December 31, 2010, at which point the
institution’s financial condition had already seriously deteriorated. In this regard, capital
levels were a lagging indicator of the inherent risks in the loan portfolio.

We conducted our performance audit in accordance with Generally Accepted Government
Auditing Standards (GAGAS). Those standards require that we plan and conduct the
performance audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

The information included in this report was obtained during our fieldwork, which occurred
during the period October 2011 through January 2012.

Very truly yours,




                                               I-3
Why We Did the Audit
Section 38(k) of the FDI Act, as amended by the Dodd-Frank Wall Street Reform and
Consumer Protection Act (the Financial Reform Act), provides, in general, that if the DIF
incurs a material loss with respect to an insured depository institution, the Inspector General
of the appropriate federal banking agency shall prepare a report to that agency, reviewing the
agency’s supervision of the institution. The Financial Reform Act amends section 38(k) by
increasing the MLR threshold from $25 million to $200 million for losses that occur for the
period January 1, 2010 through December 31, 2011. The FDI Act requires that the report be
completed within 6 months after it becomes apparent that a material loss has been incurred.

On July 22, 2011, the CDB closed BOC and the FDIC was appointed receiver. On
August 17, 2011, the FDIC notified the OIG that BOC’s total assets at closing were
$979.4 million and that the estimated loss to the DIF was $213.6 million. The FDIC OIG
engaged KPMG to conduct an MLR of BOC. The performance audit objectives were to
(1) determine the causes of BOC’s failure and the resulting material loss to the DIF and
(2) evaluate the FDIC’s supervision of BOC, including the FDIC’s implementation of the
PCA provisions of section 38. Appendix 1, Objectives, Scope, and Methodology, describes
the procedures used by KPMG to conduct this performance audit.1 In addition, Appendix 2
provides a glossary of terms, and Appendix 3 contains a list of acronyms used in this report.

Background
BOC represented the combination of three formerly separate and independent community
banks that were acquired by the institution’s parent holding company, BOCHC, which was
formed in March 2004.2 These three banks were:

        Weld County Bank, Evans, Colorado (Evans). Evans was chartered in October 1997
         and acquired by BOCHC on July 1, 2004. Upon acquisition, the bank’s name was
         changed to Bank of Choice.

        Colonial Bank, Denver, Colorado (Colonial). Colonial was chartered in
         September 1982 and acquired by BOCHC on November 1, 2005.

        The First National Bank of Arvada, Arvada, Colorado (Arvada). Arvada was
         chartered in January 1896 and acquired by BOCHC on March 17, 2006. Arvada
         converted to a state non-member bank when it was acquired by BOCHC, and the
         institution’s name was changed to Bank of Choice Colorado.




1
  In conducting this performance audit and preparing the report, KPMG relied primarily on information provided by the OIG
and the FDIC’s Division of Risk Management Supervision (RMS).
2
  BOCHC acquired a fourth institution—Palisades National Bank, Palisade, Colorado—in January 2005. However, BOCHC
sold the institution in January 2011. At the time of its sale, Palisades National Bank had approximately $53 million in total
assets. We did not include this institution in the scope of this MLR as it was not merged into BOC.


                                                           I-4
In the years following the acquisitions, BOCHC merged all three banks into BOC. Figure 1
illustrates the mergers and acquisitions that ultimately formed BOC.3

Figure 1: BOCHC Acquisitions and Mergers, 2004 – 2008




Source: KPMG analysis of BOC’s Supervisory History prepared by RMS.

We reviewed the supervisory activities of Colonial, Arvada, and Evans as part of the MLR
because all three banks were under the common ownership of BOC’s parent holding
company, their key business strategies were generally determined on a consolidated basis,
and it was the combined assets of these three banks that ultimately formed BOC in 2008.
Notably, the President of Evans, who also served as the bank’s chief executive officer (CEO)
and Chairman of the Board (COB), subsequently became the COB of BOCHC, Arvada, and
Colonial, and the President of BOC. This individual led the organizations’ acquisitions and
aggressive CRE growth strategy. Formal business plans and strategic plans were established
on a consolidated basis at the BOCHC level that set forth the goals and visions of the holding
company and its subsidiaries.

The FDIC received a corporate reorganization merger application for Arvada and Colonial on
August 25, 2006 and subsequently approved the application on October 16, 2006. As of
September 30, 2006, Arvada and Colonial had total assets of $227.7 million and
$236.7 million, respectively. The FDIC received a corporate reorganization merger

3
  For the purposes of this report, BOC, formerly named Bank of Choice Colorado, which was formerly named First National
Bank of Arvada, will be referred to as “Arvada” for the time period prior to September 11, 2008. Similarly, the Bank of
Choice, Evans, Colorado, formerly named Weld County Bank, Evans, Colorado, will be referred to as “Evans” for the time
period prior to September 11, 2008. We use the acronym “BOC” when referring to the merged institutions, which reflects
the time period subsequent to the merger of Evans into Arvada on September 11, 2008.


                                                         I-5
application for Arvada and Evans on June 11, 2008 and subsequently approved the
application on July 14, 2008. As of June 30, 2008, Arvada and Evans had total assets of
$623.8 million and $562.6 million, respectively. When reviewing the merger applications,
the FDIC considered various factors as required by the FDI Act and outlined in the FDIC’s
Risk Management Manual of Examination Policies (Examination Manual). Such factors
included the financial condition of the banks, the capital structure of the resulting institution,
and the general character of bank management. According to approval documentation for the
merger applications, such factors were favorably resolved by the FDIC.

BOC operated 17 branches and the majority of the institution’s deposits were within the
Denver and Greeley metropolitan markets. BOC, Colonial, Arvada, and Evans emphasized
CRE and ADC lending, the majority of which was in the state of Colorado. Table 1
illustrates the financial condition of BOC and two of its predecessor banks (Arvada and
Evans) as of December 31, 2010 and for the 4 preceding calendar years.

Table 1: Selected Bank Financial Information, 2006 - 2010
Financial Data (millions)   12/10    12/09    12/08          12/07                                       12/06
                            BOC      BOC       BOC     Evans     Arvada                            Evans Arvada
Total Assets               $1,155   $1,225    $1,180    $547       $570                             $445      $477
Total Loans                 $692     $853      $921     $424       $455                             $371      $322
Total Deposits              $996    $934**    $854*     $424       $465                             $344      $399
Brokered Deposits/Total    4.37%   5.64%** 24.85%      9.51%     11.02%                            12.87%    7.36%
Liabilities
FHLB Advances/Total        9.65%    13.67%   14.75% 10.91%        1.24%                            11.55%         0%
Liabilities
ADC Loans/Total Capital    390%      239%     332%      288%      415%                              253%         303%
CRE Loans/Total            1158%     545%     616%      613%      690%                              613%         590%
Capital***
Noncurrent Loans/Gross    14.13%    7.46%     3.66%    2.18%      1.93%                             1.52%       1.03%
Loans
Return on Average Assets  (4.74%) (4.27%)     0.11%    0.46%      0.79%                            0.64%        1.19%
Tier 1 Leverage Capital    2.32%    7.42%     8.84%    7.97%      8.41%                            8.77%        8.53%
Total Risk Based Capital   5.16%    10.76%   10.40% 10.01% 10.11%                                  10.01%       11.04%
Source: Uniform Bank Performance Reports (UBPR) for BOC, Arvada, and Evans.
*Decrease in total deposits from 2007 to 2008 appears attributable to the expiration of a $200 million Certificate
of Deposit (CD) program and attrition of core time deposits, coupled with an increased reliance on wholesale
funding, including brokered deposits and FHLB advances.
**The decrease in the brokered deposits to total liabilities ratio and the increase in total deposits appears
attributable to a large increase in core deposits that offset a runoff of approximately $100 million in brokered CDs.
The increase in deposits is partially attributed to the closing of a competitor bank.
***CRE concentrations include owner-occupied CRE. This also applies to Table 2, Figure 2, and Figure 3 within
this report.




                                                        I-6
Causes of Failure and Material Loss
BOC failed primarily because the Boards and management of BOC and its predecessor banks
did not effectively manage the risks associated with heavy concentrations in CRE and ADC
loans. Among other things, the Boards and management of BOC and its predecessor banks
did not establish prudent CRE and ADC loan concentration limits or maintain capital at levels
that were commensurate with the risk in the banks’ loan portfolios. Lax lending practices
also contributed to the asset quality problems that developed when economic conditions in
BOC’s lending markets deteriorated. BOC’s risk profile was further elevated by its reliance
on non-core funding sources, such as brokered deposits, large time deposits, and FHLB
advances, which were used by BOC’s predecessor banks to support loan growth and
operations. These funding sources became restricted when BOC’s financial condition
deteriorated, straining the institution’s liquidity position.

During 2007, conditions in the Colorado real estate market began to decline. By year-end
2009, the quality of BOC’s loan portfolio had deteriorated significantly, with the majority of
problems centered in CRE and ADC loans. Further deterioration occurred in 2010. The
associated provisions for loan losses depleted BOC’s earnings, eroded its capital, and strained
its liquidity. The CDB closed BOC on July 22, 2011 because the institution was unable to
raise sufficient capital to support its operations.

Board and Management Oversight

According to the Examination Manual, an institution’s Board has overall responsibility and
authority for formulating sound policies and objectives for the institution and for effectively
supervising the institution’s affairs. Executive officers, such as the President and CEO, have
primary responsibility for managing the day-to-day operations and affairs of the institution.
Further, ensuring appropriate corrective actions to regulatory concerns is a key responsibility
of the Board.

As discussed in subsequent sections of this report, the Boards and management of BOC and
its predecessor banks did not establish and implement adequate risk management controls
pertaining to their CRE and ADC lending and reliance on wholesale funding sources.
Examiners identified weaknesses pertaining to the institutions’ risk management practices in
these areas during the years preceding BOC’s failure and made suggestions for improvement.
Specifically, examination reports issued from 2004 to 2007 for Arvada, Evans, and Colonial
noted a lack of formal CRE concentration exposure limits and inadequate liquidity and
wholesale funding policies. However, the actions taken by the Boards and management of
these three banks to address examiner concerns were generally not timely or adequate.
Examiners subsequently determined that the limits ultimately established by BOC for both
CRE loans and wholesale funding sources were excessive.

Lax lending practices also contributed to the asset quality problems that developed when
economic conditions in BOC’s lending markets deteriorated. For example, during the
February 2008 CDB examination of Arvada, examiners cited the need for credit
administration enhancements, including:


                                             I-7
      improved documentation of borrower cash flows, including global cash flow analyses;
      better documentation and a clear presentation of borrower repayment capacity;
      inclusion of debt service coverage ratios in loan files;
      better documentation and support for appraisal evaluations; and
      implementation of a monitoring process for loans with interest reserves that were
       running out or totally exhausted, particularly for borrowers whose construction
       projects had slowed or were experiencing stale sales.

As the real estate market declined and the level of problem assets at BOC became more
apparent, examiners noted that bank management’s recognition of emerging problems was
not always timely. For example, during the August 2009 visitation of BOC, examiners
noted a material flaw in the Allowance for Loan and Lease Losses (ALLL) methodology
that resulted in the need for an additional provision of about $4 million. During the June
2011 visitation, examiners identified the need for an additional provision to the ALLL of at
least $21 million.

Although earlier examinations noted weaknesses in credit administration practices, examiners
considered risk management practices related to the credit function at Colonial, Evans, and
Arvada to be satisfactory, as evidenced by the “1” or “2” ratings assigned to Asset Quality.
Examiners assigned Asset Quality a “3” rating at the November 2008 examination of BOC,
and further downgraded the rating to a “4” and then a “5” at the August 2009 visitation and
November 2009 examination, respectively. Examiners at the January 2011 joint examination
attributed BOC’s high level of adversely classified assets to weak credit underwriting, poor
risk management practices, poor loan administration, and the bank’s concentration in CRE
lending.

Growth Concentrated in CRE and ADC Lending

BOC had a significant exposure to CRE and ADC loans, which was in large measure the
result of the lending practices of the banks that merged into BOC. Together with weak
concentration risk management practices, this exposure made BOC vulnerable to a sustained
downturn in the Colorado real estate market. Further, the capital levels of BOC and its
predecessor banks remained relatively constant between 2006 and 2009, and, at certain times
during that period, were just above PCA thresholds for a Well Capitalized institution. At the
same time, risk in the banks’ loan portfolios increased due to the growing CRE and ADC
loan exposures. Had the banks maintained higher capital ratios, loan growth may have been
constrained, and losses to the DIF may have been mitigated to some extent.

Figure 2 illustrates the composition of the loan portfolios for Evans, Arvada, and Colonial as
of September 30, 2006, which was the last quarter in which all three banks filed separate
Reports of Condition and Income (Call Report).




                                             I-8
Figure 2: Loan Composition of BOCHC’s Subsidiary Banks, September 30, 2006
                                                       $160,000

                                                       $140,000
  Loan Amount ($000s)


                                                       $120,000

                                                       $100,000
                                                        $80,000

                                                        $60,000

                                                        $40,000

                                                        $20,000

                                                                 $-
                                                                                Evans                 Arvada                 Colonial

                                                         ADC          Other CRE         Commercial & Industrial        All Other Loans
Source: KPMG analysis of Call Reports for Evans, Arvada, and Colonial.

Figure 3 illustrates the general composition and growth of the combined loan portfolios for
BOC, Evans, Arvada, and Colonial in the years preceding BOC’s failure.

Figure 3: Composition and Growth of Combined Loan Portfolios, 2005 - 2010

                                                        $1,000                                  $878.5     $920.9
                                                                                                                          $852.6
                   Total Loans and Leases (millions)




                                                         $900

                                                         $800                      $692.4                  $293.6                   $692.5
                                                                                               $248.4
                                                         $700                                                           $321.0
                                                                       $572.7
                                                         $600                      $201.0
                                                                                                                                    $265.7
                                                         $500         $182.4                   $289.4      $283.8

                                                         $400                                                           $298.6
                                                                                   $264.5
                                                         $300         $218.5                                                        $283.0

                                                         $200                                  $340.7      $343.5
                                                                                   $226.9                               $233.0
                                                         $100         $171.8                                                        $143.8

                                                          $-
                                                                      2005         2006        2007        2008         2009        2010
                                                                                            Calendar Year Ended
                                                                                   ADC         Other CRE       All Other Loans


Source: KPMG analysis of Call Reports for BOC, Evans, Arvada, and Colonial. Data for 2005 reflects the
combined total loan portfolios for Colonial, Arvada, and Evans. Data for 2006 and 2007 reflects the combined
total loan portfolios for Arvada and Evans, as Colonial was merged into Arvada in 2006. Data from 2008 to 2010
reflects the total loan portfolio for BOC after the 2008 merger of Arvada and Evans.




                                                                                                         I-9
Regulatory concerns pertaining to risks associated with excessive ADC lending date back
many years. In October 1998, the FDIC issued a Financial Institution Letter (FIL), Internal
and Regulatory Guidelines for Managing Risks Associated with Acquisition, Development,
and Construction Lending (FIL-110-98), which states that ADC lending is a highly
specialized field with inherent risks that must be managed and controlled to ensure that this
activity remains profitable.
ADC lending generally involves a greater degree of risk than permanent financing for
finished residences or commercial buildings. Associated risks include adverse changes in
market conditions between the time an ADC loan is originated and the time construction is
completed, as well as the inherent difficulty of accurately estimating the cost of construction
and the value of completed properties in future periods. Due to these and other risk factors,
ADC loans generally require greater effort to effectively evaluate and monitor than other
types of loans.
Regulatory concerns pertaining to CRE and ADC lending were reinforced in December 2006
when the FDIC, the Office of the Comptroller of the Currency (OCC), and Board of
Governors of the Federal Reserve System issued joint guidance, entitled Concentrations in
Commercial Real Estate Lending, Sound Risk Management Practices (Joint Guidance). The
Joint Guidance defines criteria that the agencies use to identify institutions potentially
exposed to significant CRE concentration risk, but it does not establish specific CRE lending
limits. According to the Joint Guidance, an institution that has experienced rapid growth in
CRE lending, has notable exposure to a specific type of CRE, or is approaching or exceeds
the following supervisory criteria may be identified for further supervisory analysis of the
level and nature of its CRE concentration risk:
       total CRE loans representing 300 percent or more of total capital where the
        outstanding balance of the institution’s CRE loan portfolio has increased by
        50 percent or more during the prior 36 months; or
       total loans for construction, land development, and other land (referred to in this
        report as ADC) representing 100 percent or more of total capital.
In addition, in March 2008, the FDIC issued FIL-22-2008, Managing CRE Concentrations in
a Challenging Environment, which reiterated broad supervisory expectations with regard to
managing risks associated with CRE and ADC concentrations. Specifically, the guidance re-
emphasized the importance of strong capital and loan loss allowance levels and robust credit
risk management practices.
As shown in Table 2, BOC and its predecessor banks Evans and Arvada had CRE and ADC
loan concentrations as a percentage of total capital that significantly exceeded the levels
defined in the Joint Guidance as warranting additional supervisory analysis. Further, the
banks’ CRE and ADC loan concentrations as a percentage of total capital substantially
exceeded their peer group averages.4

4
  Institutions are assigned to 1 of 15 peer groups based on asset size, number of branches, and whether the
institution is located in a metropolitan or non-metropolitan area. BOC’s peer group consisted of insured
commercial banks having assets between $1 billion and $3 billion. Arvada’s and Evans’ peer group consisted of
insured commercial banks having assets between $300 million and $1 billion.


                                                   I-10
Table 2: CRE and ADC Concentrations Compared to Peer Groups
                           CRE Loans as a Percent of             ADC Loans as a Percent of Total
                                 Total Capital                              Capital
            Period
  Bank                                Peer                                    Peer
            Ended        Bank                      Bank           Bank                      Bank
                                     Group                                   Group
                         CRE                     Percentile       ADC                     Percentile
                                      CRE                                     ADC
 Arvada                   590                         89           303                         91
            Dec-06                     372                                     117
 Evans                    613                         91           253                         87
 Arvada                   690                         96           415                         97
            Dec-07                     377                                     124
 Evans                    613                         90           288                         89
  BOC       Dec-08         616         421            86           332         139             91
  BOC       Dec-09         545         386            83           239          98             91
  BOC       Dec-10        1158         336            98           390          65             98
Source: UBPRs for Evans, Arvada, and BOC.
Note: Increases in 2010 are due primarily to a decline in capital and not increases in loan volume. Data under
the percentile column represents the percentile ranking or percentage position of each bank relative to other
banks in its peer group.

Although BOC and its predecessor banks had implemented certain controls for managing
CRE and ADC loan concentrations, their concentration risk management practices were not
adequate. For example, the May 2006 and November 2006 examination reports for Evans
and Arvada, respectively, noted that the banks’ loan policies did not include asset
concentration parameters in relation to Tier 1 Capital, nor did the loan policies establish
limits on speculative construction loans to builders. The July 2006 CDB examination report
for Colonial also noted a lack of tolerance limits for credit concentrations. In addition, the
October 2007 CDB examination report for Evans noted that CRE risk tolerances needed to be
established, and the November 2008 FDIC examination report for BOC stated that the Board
and management had failed to establish risk exposure limits and sub-limits for CRE loans.
Further, the November 2009 joint examination report noted that BOC had established an
ADC loan concentration limit of up to 375 percent of total risk-based capital, exposing the
bank to potential adverse market conditions.

Further, examiners noted at the November 2008 examination that BOC had not stress-tested
its CRE and ADC loan portfolios to assess the impact that various economic scenarios might
have on the institution’s asset quality, capital, and earnings as described in the Joint
Guidance.

CRE and ADC Loan Losses

At the November 2008 examination, BOC’s adversely classified assets totaled $63 million, or
59 percent of Tier 1 Capital plus the ALLL. Almost all of these classifications consisted of
CRE loans, including ADC loans. The level of adversely classified CRE assets increased
dramatically at the November 2009 joint examination, totaling approximately $140 million,
or 88 percent of total adversely classified assets. Of the $198 million in adversely classified
assets at the January 2011 joint examination, approximately $123 million (or 64 percent)
pertained to CRE. In its final Call Report for the quarter ended June 30, 2011, BOC reported



                                                     I-11
that 16 percent of its total loan portfolio was in non-accrual status. Further, about 31 percent
of the bank’s CRE loan portfolio and 46 percent of the ADC loan portfolio was greater than
30 days past due or in non-accrual status at that time.

Capital Levels Relative to CRE and ADC Loan Growth

The Joint Guidance states that institutions with CRE concentrations should hold capital
exceeding regulatory minimums and commensurate with the level of risk in their CRE
lending portfolios. In addition, the Examination Manual states that institutions should
maintain capital commensurate with the level and nature of risks to which they are exposed.
Further, the amount of capital necessary for safety and soundness purposes may differ
significantly from the amount needed to maintain a Well Capitalized or Adequately
Capitalized position for purposes of PCA.

BOC and its predecessor banks (Arvada and Evans) relied on BOCHC for capital injections
to support loan growth and to maintain a Well Capitalized PCA status. As reflected in
Table 3, the Total Risk-based Capital ratios for BOC and its predecessor banks Arvada and
Evans remained relatively constant, while risk associated with the institutions’ CRE and
ADC loan concentrations increased. Notably, Evans’ and Arvada’s Total Risk-based Capital
ratios were less than one-tenth of 1 percent above the minimum threshold for Well
Capitalized institutions at the October 2007 and February 2008 CDB examinations,
respectively. Such capital levels do not appear to have been commensurate with the level of
risk in the banks’ loan portfolios. In addition, the capital ratios of BOC and its predecessor
banks were consistently below peer group averages despite CRE and ADC loan exposures
that were much higher than peer group averages. Had the banks maintained higher capital
ratios, loan growth may have been constrained and losses to the DIF may have been mitigated
to some extent.

Table 3: Total Risk-Based Capital Ratios Compared to Peer Group
             Period
  Bank                      Bank Ratio        Peer Group Ratio            Bank Percentile
             Ended
 Arvada                        11.04                                             25
             Dec-06                                 12.89
 Evans                         10.01                                             0
 Arvada                        10.11                                             3
             Dec-07                                 12.73
 Evans                         10.01                                             1
  BOC        Dec-08            10.40                11.69                        19
  BOC        Dec-09            10.76                12.52                        18
  BOC        Dec-10             5.16                14.01                        1
Source: UBPRs for Evans, Arvada, and BOC.

Reliance on Non-core Funding Sources

Evans, Colonial, Arvada, and BOC relied heavily on non-core funding sources to support
loan growth and maintain liquidity without implementing adequate risk management
practices, such as appropriate measurement, monitoring, and reporting systems. Examination
reports for Evans, Colonial, and Arvada issued in 2006 noted weaknesses pertaining to the



                                             I-12
bank’s liquidity risk management practices, such as a lack of risk limits and effective
monitoring.

The Examination Manual states that the non-core funding dependence ratio is a measure of
the degree to which a bank relies on potentially volatile liabilities, such as, but not limited to,
CDs over $100,000 and brokered deposits to fund long-term earning assets (e.g., loans with a
term of 1 year or more). Generally, the lower the ratio, the less risk exposure there is for the
bank, whereas higher ratios reflect reliance on funding sources that may not be available in
times of financial stress or adverse changes in market conditions. In March 2009, the FDIC
issued FIL-13-2009, The Use of Volatile or Special Funding Sources by Financial
Institutions That are in a Weakened Condition, which indicated that institutions with
aggressive growth strategies or excessive reliance on volatile funding sources are subject to
heightened supervisory monitoring and examination.

Evans’ reliance on non-core funding was particularly high. Figure 4 illustrates the trend in
Evans’ non-core funding dependence ratio between December 2004 and June 2008.

Figure 4: Evans Net Non-core Funding Dependence Ratio Compared to Peer Group

                                           60%
   Net Non-core Funding Dependence Ratio




                                                                                          54%
                                                 46%             48%                                              49%
                                           50%

                                                                                                          36%
                                           40%


                                           30%
                                                                                                                  29%
                                                                                                         26%
                                           20%
                                                                  22%                24%
                                                 15%
                                           10%
                                                                         Evans      Peer Group

                                           0%
                                             Dec-04    Jun-05   Dec-05    Jun-06    Dec-06      Jun-07   Dec-07   Jun-08
                                                                           Period Ended
Source: KPMG analysis of UBPRs for Evans.

The November 2008 examination report noted that although Arvada had been less reliant on
non-core funding sources than Evans, significant loan growth at Arvada in 2007 was mainly
funded using FHLB advances and large time deposits. As a result, Arvada’s net non-core
funding dependence ratio increased from 22 percent as of December 31, 2006, to 46 percent
as of June 30, 2008, which was the final reporting quarter prior to the formation of BOC.
Following the formation of BOC in 2008, management had been unsuccessful in attracting
more stable core deposits. To lower its cost of deposits, BOC’s management initiated a
program to use FHLB advances and brokered deposits to a greater extent to replace some of



                                                                             I-13
the $200 million in high-cost time deposits that were generated from a promotional CD
program implemented in the summer of 2007.

As of December 31, 2008, BOC’s net non-core funding dependence ratio peaked a
56 percent. At this time, BOC had $261.1 million in brokered deposits, which represented
31 percent of total deposits, and was more than a 200 percent increase from the $82.1 million
in brokered deposits that Evans and Arvada collectively held as of December 31, 2006.
Further, the November 2008 examination report for BOC noted that the Board had increased
its brokered deposit limitation from 25 to 40 percent of total deposits. In view of the bank’s
asset quality weaknesses and the institution’s elevated risk profile, examiners considered this
limitation to be excessive. Table 4 summarizes funding sources from 2006 through 2010.

Table 4: Summary of Funding Sources
                            Core         Brokered          Time Deposits              FHLB
              Period
  Bank                    Deposits       Deposits         above insurance           Advances
              Ended
                           ($000s)        ($000s)           limit ($000s)            ($000s)
  Evans
   and       12/31/06     $426,433        $82,139              $234,683              $47,100
  Arvada
  Evans
   and       12/31/07     $544,680        $101,932             $242,236              $61,050
  Arvada
   BOC       12/31/08     $457,828        $261,136             $135,109              $154,990
   BOC       12/31/09     $703,278        $54,892              $176,157              $154,930
   BOC       12/31/10     $845,292        $49,256              $101,167              $108,870
Source: KPMG analysis of UBPRs for Evans, Arvada, and BOC. Data for 2006 and 2007 reflects combined
figures for Evans and Arvada.

BOC reduced its level of non-core deposits and bolstered core deposits starting in 2009.
However, Evans’ and Arvada’s dependence on large time deposits, brokered deposits, and
FHLB advances facilitated the loan growth strategy, which ultimately contributed to the
financial problems experienced by BOC when its lending markets deteriorated. BOC’s non-
core funding sources became restricted when BOC’s financial condition deteriorated,
straining the institution’s liquidity position.


The FDIC’s Supervision of Bank of Choice
The FDIC, in coordination with the CDB, provided ongoing supervisory oversight of BOC
and its predecessor banks through regular on-site examinations, visitations, and various
offsite monitoring activities. Through its supervisory efforts, the FDIC identified risks in the
banks’ operations and brought these risks to the attention of the institutions’ Boards and
management through examination and visitation reports, correspondence, and supervisory
actions. Such risks included a lack of adequate risk management practices pertaining to
significant concentrations in CRE and ADC loans and reliance on non-core funding sources,




                                                I-14
inadequate capital protection and liquidity levels, as well as adverse changes in the local
Colorado economy.

The following sections detail our analysis of the supervisory history, supervisory and
enforcement actions, offsite monitoring, PCA activities, and supervisory lessons learned
pertaining to BOC and its predecessor banks.

Supervisory History

The FDIC, OCC, and CDB conducted 13 examinations and 3 visitations of BOC and its
predecessor banks between 2004 and July 2011. The banks’ composite ratings resulting from
these examinations were a “1” or “2” from 2004 through February 2008, with the exception
of the February 2004 examination of Arvada. The first examination of BOC as a combined
entity in November 2008 resulted in a composite rating of “3” and led to an MOU in
February 2009. BOC’s composite rating was further downgraded to a “5” at the November
2009 joint examination, with the examination results leading to a Consent Order (Order)
effective May 6, 2010. The institution remained a composite “5” until it was closed in July
2011. The frequency of this on-site examination activity was consistent with relevant
statutory and regulatory requirements.5 Table 5 summarizes key supervisory information
pertaining to Colonial, Evans, Arvada, and BOC from 2004 through 2011.




5
  Section 337.12 of the FDIC Rules and Regulations, which implements section 10(d) of the FDI Act, requires annual full-
scope, on-site examinations of every state non-member bank at least once every12-month period and allows for 18-month
intervals for certain small institutions (i.e., total assets of less than $500 million, effective April 2007; previously $250
million) if certain conditions are satisfied.


                                                           I-15
Table 5: On-site Examinations and Visitations
 Bank         Examination         Examination        Regulators       Supervisory           Informal or Formal Action
 Name          Start Date         or Visitation                         Ratings                       Taken
                                                                        (UFIRS)
Colonial         6/27/2005          Examination         FDIC            211112/1                         N/A
Colonial         7/24/2006          Examination         CDB             211122/1                         N/A
  Evans          6/14/2004          Examination         FDIC             212222/2                        N/A
  Evans          6/6/2005           Examination         CDB              212333/2                        N/A
  Evans          5/30/2006          Examination         FDIC             222222/2                        N/A
  Evans          10/1/2007          Examination         CDB              222322/2                        N/A
                                                                                         Cease and Desist Order (C&D) and
 Arvada          2/16/2004         Examination           OCC             233212/3
                                                                                          Civil Money Penalties (CMP)*
 Arvada         6/20/2005          Examination          OCC              222111/2                      N/A
 Arvada         11/27/2006         Examination          FDIC             222222/2                      N/A
 Arvada          2/19/2008         Examination         CDB**             222222/2                      N/A
  BOC           11/10/2008          Examination         FDIC             333343/3             MOU - February 19, 2009
  BOC           8/11/2009            Visitation         FDIC             343443/3             MOU remained in effect
  BOC           11/23/2009          Examination      FDIC/CDB            555555/5                Order – May 6, 2010
                                                                         No rating
  BOC            7/26/2010           Visitation         FDIC                                   Order remained in effect
                                                                          changes
  BOC            1/18/2011          Examination      FDIC/CDB            555555/5              Order remained in effect
                                                                         No rating
  BOC             6/6/2011           Visitation      FDIC/CDB                                  Order remained in effect
                                                                          changes
Source: KPMG analysis of examination and visitation reports for Colonial, Evans, Arvada, and BOC.
* Arvada was issued a C&D and CMP at the February 16, 2004 OCC examination due to previously purchased
participations in mostly subprime mortgages coupled with inadequate policies and procedures for subprime
credits. With the assistance of a third-party investor, the originator of the subprime loans repurchased all of the
subprime loans. Arvada paid $50,000 in CMP and received a composite “2” rating at the subsequent 2005 OCC
examination.
** The FDIC provided assistance to the CDB during this examination.

Supervisory and Enforcement Actions

Based on the results of the November 2008 FDIC examination, the FDIC and CDB signed an
MOU with BOC, effective February 19, 2009. Among other things, the MOU required BOC
to:

         submit a written capital plan to increase capital levels;

         submit a written classified asset reduction plan;

         revise the Loan Policy to address concentrations and establish risk limitations for
          CRE lending as a percent of total capital;

         submit a written profit plan that establishes strategies and measures to improve the
          profitability of the bank;




                                                      I-16
      revise the Asset/Liability Management (ALM) Policy to incorporate a strategy to
       achieve an acceptable interest rate sensitivity balance; and

      revise the Liquidity Policy to establish objectives and funding strategies aimed at
       improving liquidity and reducing reliance on non-core/volatile funding sources.

The FDIC performed an on-site visitation in August 2009 to assess BOC’s progress in
addressing the provisions of the MOU. Examiners noted management had made reasonable,
good faith efforts to address the provisions of the MOU, but much remained to be
accomplished. For example, examiners noted that the capital plan submitted on April 27,
2009 did not include a “specific expressed determination by the Board of the minimum level
of capital to be maintained by the bank.” Based on the findings of the visitation, the FDIC
notified BOC’s Board that the bank was deemed to be in a “troubled condition” in a letter
dated September 21, 2009. Section 303 of the FDIC Rules and Regulations defines the
restrictions pertaining to institutions in a “troubled condition.” Such restrictions include, but
are not limited to, notifying the FDIC in advance of any additions to the Board or the senior
management team.

Based on the results of the November 2009 joint examination, the FDIC and CDB issued an
Order effective May 6, 2010. Among other things, the Order required BOC to:

      increase the Board’s participation in the affairs of the bank;

      submit a written capital plan to achieve a Tier 1 Capital ratio of 9 percent or more and
       a Total Risk Based Capital Ratio of 13 percent or more;

      restrict any declaration of dividends;

      adopt a strategic plan addressing ALM and the need to reduce problem loans and
       restrict asset growth;

      submit a written profit plan and a realistic comprehensive budget;

      submit a written plan addressing liquidity, the bank’s reliance on volatile liabilities
       (including brokered deposits), and asset/liability management;

      submit a written plan to reduce all loan concentrations, including concentrations in
       construction and land development and non-owner-occupied commercial real estate;

      submit an interest rate policy; and

      revise the Loan Policy to address troubled debt restructuring.

The FDIC performed an on-site visitation in July 2010 to review compliance with the
provisions of the Order. While BOC had taken some action to address most of the Order’s




                                                I-17
provisions, examiners noted that many critical elements of the Order remained largely in the
planning stage, and implementation had either not been initiated or had not succeeded.

Offsite Monitoring

The FDIC has established an offsite review program that is designed to identify emerging
supervisory concerns and potential problems so that bank supervisory strategies can be
adjusted appropriately. Under the program, offsite reviews are performed quarterly for each
bank that appears on the Offsite Review List (ORL).6 Regional RMS management is
responsible for implementing procedures to ensure that offsite review findings are considered
when establishing examination schedules and other supervisory activities. Offsite reviews
must be completed 3½ months after each quarterly Call Report date. This schedule generally
provides 45 days to complete the offsite reviews once the Call Report is finalized.

The FDIC uses various offsite monitoring tools to help assess the financial condition of
banks. These tools use statistical techniques, Call Report data, and other information to
identify potential risks, such as institutions likely to receive a supervisory downgrade at the
next examination or institutions experiencing rapid growth and/or a funding structure highly
dependent on non-core funding sources. Table 6 identifies the key offsite monitoring tools
that identified risk flags for Evans, Arvada, and BOC.




6
  The ORL identifies institutions warranting heightened supervisory oversight. Since the offsite review program
is intended to identify potential emerging problems, the ORL includes only those institutions with a composite
rating of a “1” or “2.”


                                                    I-18
Table 6: Offsite Review History
  Bank      Offsite     Statistical    SCOR-        Real        Growth         Consistent         Young             MultiflagG
            Review      CAMELS          LagB       Estate      Monitoring       GrowerE        InstitutionsF
             Date         Offsite                  Stress       System
                          Rating                    Test        (GMS)D
                          System                  (REST)C
                         (SCOR)A
 Evans      6/30/05                                                                                                
 Evans      3/31/08                                 
 Evans      6/30/08                                                              
 Arvada     3/31/08                                  
 Arvada     6/30/08                                 
 BOC        9/30/08                                              
 BOC        12/31/08                                             
Source: KPMG analysis of the results of offsite reviews for Evans, Arvada, and BOC.
A
  SCOR is a financial model that uses statistical techniques, offsite data, and historical examination results to
measure the likelihood that an institution will receive a CAMELS downgrade at the next examination.
B
  SCOR-lag is a derivation of SCOR that assesses the financial condition of rapidly growing banks. SCOR ratios
used to measure asset quality are likely to be understated at a rapidly growing bank since few loans are non-
performing at origination. A common technique to avoid such an understatement is the use of a lag-ratio.
SCOR-lag uses current period SCOR data and then adjusts the asset quality ratios on a 1-year lag basis.
C
  REST measures exposures to real estate lending.
D
  GMS identifies institutions experiencing rapid growth and/or with a funding structure highly dependent on non-
core funding sources.
E
  Consistent Grower is a cumulative growth score for an institution using up to 20 quarters of GMS scores.
F
  Young Institutions identifies institutions that are less than 8 years old.
G
  Multiflag is determined by combining the multiple risk measures from the various offsite review models.

As reflected in Table 6, Evans was flagged for offsite review once in 2005 and twice in 2008.
Arvada was first flagged for offsite review in the first two quarters of 2008, and BOC was
flagged for review in the final two quarters of 2008. Relevant examiner comments
documented during the offsite reviews include the following:

        June 2005 (Evans): Loan growth was the primary flag. The bank’s use of non-core
         deposits had increased and had been utilized without adequate policies, measuring
         tools, or monitoring.
        March 2008 (Evans and Arvada): The level of risk was high with an increasing trend.
         Financial data indicated material stress on the banks’ financial condition. The
         Chairman and CEO for both banks acknowledged that the banks were experiencing
         problems, and RMS scheduled an examination with a November 2008 start date.
        June 2008 (Evans and Arvada): The level of risk was high with an increasing trend.
         Financial data indicated material stress on the banks’ financial condition, and RMS
         expected to downgrade the banks at the November 2008 examination.
        September 2008 (BOC): The onsite examination confirmed deterioration, and an
         MOU to address the weaknesses was in process.
        December 2008 (BOC): The onsite examination confirmed deterioration, and a
         UFIRS of 333343/3 was assigned. An MOU to address the weaknesses identified was
         put in place effective February 19, 2009.

The offsite reviews were conducted in accordance with FDIC policy and, as such, focused on
numerical measures of risk with less emphasis on unsafe or unsound practices, such as risk


                                                     I-19
management practices. The offsite monitoring did not appear to have significantly changed
the FDIC’s approach to supervising the institutions because: (1) offsite reviews were not
triggered in 2006 or 2007, a period in which the institutions were assuming increased risk
during favorable economic conditions, and (2) when offsite reviews were triggered in 2008,
on-site examinations were either recently completed or scheduled to begin relatively soon
thereafter at BOC.

Supervisory Response Related to Board and Management Oversight

According to the Examination Manual, an institution’s Board is responsible for establishing
appropriate risk limits, monitoring exposure, and evaluating the effectiveness of the
institution’s efforts to manage and control risk. The Examination Manual further notes that
the quality of management is often the single most important element in the successful
operation of an insured institution and is usually the factor that is most indicative of how well
risk is identified, measured, monitored, and controlled. Further, ensuring appropriate
corrective actions to regulatory concerns is a key responsibility of the Board.

BOC’s Board and management exhibited a high tolerance for risk that included significant
concentrations in CRE and ADC loans and a reliance on non-core funding deposits without
appropriate risk management practices to mitigate the corresponding risk. Examiners
generally considered Board oversight and management performance at Colonial, Evans, and
Arvada to be satisfactory, as evidenced by the “1” or “2” ratings assigned to Management.
For example, CDB examiners noted in the 2006 Colonial examination report that
management’s overall ability to identify, monitor, and manage the risks inherent in its
operations and general effectiveness in operating the institution in a safe and sound manner
was evident in the bank’s performance. Notwithstanding these determinations, FDIC and
CDB examiners expressed repeated concern about the risk management practices of BOC’s
predecessor banks and made recommendations for improvement. FDIC and CDB examiners
expressed significant concerns about BOC’s risk management practices beginning with the
November 2008 examination. However, the actions taken by the Boards and management of
BOC and its predecessor banks to address examiner concerns and recommendations were
generally not timely or adequate.

Table 7 summarizes examiner comments in examination reports issued between 2004 and
BOC’s failure that pertain to issues for which the Boards and management of the banks had a
responsibility to effectively address.

Table 7: Examiner Comments on Key Risks
  Bank     Examination                                 Examiner Comments
              Date
  Evans     6/14/2004       A better system for tracking CRE industry concentrations was needed.
                            As noted in the previous two examinations, examiners strongly encouraged
                             management to establish funding limits, and measure and monitor the
                             bank’s dependence ratio, as required by the bank’s ALM Policy.
  Evans      6/6/2005       The ALM Policy continued to require the Board and management’s
                             attention. Specifically, the policy did not establish appropriate risk limits
                             and improved internal monitoring and Board reporting was needed. The
                             lack of appropriate limits regarding the use of alternate funding sources
                             was a noted weakness and a repeat criticism.


                                                I-20
 Bank      Examination                                Examiner Comments
              Date
 Evans      5/30/2006       The Loan Policy did not include asset concentration parameters in relation
                             to Tier 1 Capital nor provide general limits on speculative construction
                             loans to builders.
                            The ALM Policy provided no formal risk limitations for wholesale funding
                             resources or liquidity.
Colonial    7/24/2006       Tolerance limits for concentrations of credit had not been established.
                            Minimal liquidity monitoring was provided to the Board, and the limited
                             information that was provided did not accurately depict the liquidity
                             position of the bank. This was a repeat criticism from a 2003 examination.
Arvada     11/27/2006       The Loan Policy did not include asset concentration parameters in relation
                             to Tier 1 Capital nor provide general limits on speculative construction
                             loans to builders.
                            Enhanced funds management processes, contingency planning, and capital
                             maintenance were necessary when utilizing brokered deposits.
                            Net non-core funding dependency and reliance on wholesale funding ratios
                             were not being calculated or reported to the Board, and examiners
                             recommended that the ALM Policy be revised to include a maximum
                             limitation on brokered deposits.
                            Several loan policy recommendations were made, including, but not
                             limited to, specifying lending authority, defining Board responsibility for
                             loan approval, establishing guidelines for obtaining and reviewing real
                             estate appraisals, and applying appropriate financial accounting standards
                             to the ALLL methodology.
 Evans      10/1/2007       CRE risk tolerance limits should be established by the Board, and the
                             principles of the Joint Guidance should be incorporated into the loan
                             policy.
                            Policies continued to lack formal risk limits relative to wholesale funding
                             sources.
Arvada      2/19/2008       Examiners cited the need for several credit administration enhancements to
                             loan presentations, including the need for:
                             o improved documentation of borrower cash flows, including global cash
                                  flows;
                             o better documentation and a clear presentation of borrower repayment
                                  capacity;
                             o inclusion of debt service coverage ratios in the loan files;
                             o better documentation and support for evaluations conducted for
                                  appraisals; and
                             o implementation of a monitoring process for loans with interest reserves
                                  that were running out or totally exhausted, particularly for borrowers
                                  whose construction projects had slowed or were experiencing stale
                                  sales.
 BOC       11/10/2008       Although recommended at previous examinations, the Board and
                             management failed to establish risk exposure limits and sub-limits for CRE
                             loans.
                            Examiners considered the Board’s decision to increase brokered deposit
                             limits from 25 to 40 percent of total deposits excessive in view of the
                             bank’s asset quality weaknesses and elevated risk profile.
                            Risk management policies and practices for ALM and the investment
                             function were not considered adequate, and several recommendations were
                             made to revise the Interest Rate Risk and Liquidity policies.
                            Reliance on non-core funding was excessive and on-balance sheet liquidity
                             was minimal.




                                               I-21
  Bank      Examination                                   Examiner Comments
               Date
                               The bank had become increasingly reliant on non-core funding sources and
                                had not established appropriate limits on non-core funding sources, as
                                recommended by examiners.
                               The level of reliance on non-core funding sources magnified the potential
                                for a liquidity shortfall given the bank’s deteriorating financial condition,
                                and in particular the declining asset quality.
                               The increase in non-core fund usage occurred without development of a
                                Contingency Funding Plan to address material liquidity shortfalls.
   BOC       11/23/2009        The CRE concentration limits established in March 2009 exceeded the
                                Joint Guidance. In particular, bank policy limits for ADC lending were set
                                at 375 percent, while the supervisory guidance for ADC lending was 100
                                percent.
                               A more proactive approach to loan review and regular monitoring of
                                customers’ activities would alert management to borrower difficulties, such
                                as slowing sales, depletion of liquidity, reduced cash flow, and increasing
                                debt, which would allow for early intervention and mitigation of losses.
                               Internal audit procedures were considered to be limited and omitted a
                                comprehensive evaluation of risk.
   BOC        1/18/2011        Management should conduct a portfolio-level stress test or sensitivity
                                analysis on the CRE concentration to quantify the impact of changing
                                economic conditions on asset quality, earnings, and capital.
Source: KPMG analysis of examination reports for Colonial, Evans, Arvada, and BOC.

The November 2009 joint examination report stated that BOC’s Board and management had
failed to stem the deterioration of the bank and that the condition of the bank indicated that
the Board had not provided effective direction and administrative oversight, or correctly
evaluated the primary risk areas of the institution. The January 2011 joint examination report
noted that management had failed to implement effective risk management practices and
controls as the bank nearly doubled in size from year-end 2007 to year-end 2008 through
mergers and acquisitions. By 2011, it was apparent to examiners that the Board and
management had failed to establish policies and risk tolerance levels to adequately protect the
bank from a lack of sales and the real estate market collapse.

According to the Examination Manual, the following evaluation factors should be considered
when determining the Management component rating:

        the level and quality of oversight and support of all institution activities by the Board
         and management;

        the ability of the Board and management, in their respective roles, to plan for and
         respond to the risks that may arise from changing business conditions or the initiation
         of new activities or products;

        the adequacies of, and conformance with, appropriate internal policies and controls
         addressing the operations and risks of significant activities; and

        the responsiveness to recommendations from auditors and supervisory authorities.




                                                   I-22
As noted in Table 5, examiners assigned Colonial, Evans, and Arvada Management
component ratings of “1” or “2.” At the November 2008 examination, examiners assigned
BOC a Management component rating of “3,” and subsequently downgraded this rating to a
“5” at the November 2009 examination.

Supervisory Response Related to Growth Concentrated in CRE and ADC Lending

Examiners generally considered Colonial’s, Evans’, and Arvada’s risk management practices
pertaining to asset quality to be satisfactory, as evidenced by the “1” or “2” ratings assigned
to Asset Quality. Notwithstanding these determinations, examination reports issued between
2006 and 2011 expressed concern regarding the risks associated with the banks’ CRE and
ADC loan concentrations. In addition to the many comments and recommendations on the
banks’ concentration risk management controls contained in Table 7, Table 8 identifies
additional comments in examination reports specifically pertaining to CRE and ADC
concentrations.

Table 8: Examiner Comments Related to CRE and Concentrations, 2006 - 2011
  Bank      Examination   CRE / ADC                          Examiner Comments
             Start Date       as a
                          Percentage
                            of Total
                            Capital
 Colonial    7/24/2006    522% / 444%    Examiners noted that nearly all the classified loans at the
                              as of      examination were construction loans.
                            3/31/2006
  Evans      5/30/2006    587% / 244%    Examiners noted that the continued large concentration in
                              as of      construction loans, particularly speculative construction loans
                           3/31/2006     and land/lot development loans, increased the need for the
                                         Board and management to ensure appropriate loan underwriting
                                         and administration remained in place. Examiners noted a high
                                         risk exposure to potential fluctuations in the real estate market.
  Evans      10/1/2007    624% / 300%    Examiners recognized a CRE concentration, noting that analysis
                              as of      was needed on the types of properties financed, the adequacy of
                            6/30/2007    their collateral coverage and cash flow, and the market effects
                                         on the repayment abilities of customers.
 Arvada      11/27/2006   602% / 120%    Examiners noted that the loan portfolio contained an industry
                              as of      concentration in real estate construction/land development
                            9/30/2006    loans.
 Arvada      2/19/2008    689% / 415%    While CRE concentration levels were documented in the
                              as of      examination report, there were no further comments on the CRE
                           12/31/2007    concentration level or practices at this examination.
  BOC        11/10/2008   586% / 320%    Examiners noted that a portfolio-level stress test or sensitivity
                              as of      analysis on CRE loans needed to be implemented to quantify the
                            9/30/2008    impact of changing economic conditions on asset quality,
                                         earnings, and capital. The bulk of the CRE concentrations were
                                         comprised of higher-risk ADC loans.
  BOC        11/23/2009   569% / 276%    Examiners noted that CRE loans, particularly ADC loans, had
                              as of      been adversely affected by the weak real estate market,
                            9/30/2009    contributing to the increased level of adverse classifications.
                                         Approximately $140 million (or 88 percent) of adversely
                                         classified loans were CRE.




                                             I-23
  Bank     Examination       CRE / ADC                           Examiner Comments
            Start Date           as a
                             Percentage
                               of Total
                               Capital
  BOC        1/18/2011      1158% / 390%     Examiners noted that the alarming increase in problem assets
                                 as of       and credit losses was attributed to the excessive concentration of
                              12/31/2010     collateral dependent, high-risk ADC and CRE loans.
                                             Approximately $123 million (or 64 percent) of adversely
                                             classified loans were CRE.
Source: KPMG analysis of examination reports for Colonial, Evans, Arvada, and BOC. ADC and CRE
percentages were obtained from UBPRs for the institutions.

The Examination Manual notes that examiners should consider the existence of asset
concentrations, as well as the level and trend of classified, nonaccrual, and delinquent assets,
when assessing the Asset Quality component. The Examination Manual further states that
management’s ability to identify, measure, monitor, and control credit risk should be
reflected in the Asset Quality component rating.

The Asset Quality component for Colonial, Evans, and Arvada was rated either a “1” or “2”
from 2006 to February 2008. At the November 2008 examination, BOC was assigned an
Asset Quality rating of “3.” Examiners downgraded this rating to a “4” at the August 2009
visitation, and to a “5” at the November 2009 examination.

Supervisory Response Related to Reliance on Non-core Funding Sources

BOC and its predecessor banks relied on non-core funding sources, such as large time
deposits, brokered deposits, and FHLB advances, to fund operations and loan growth. When
properly managed, such funding sources offer important benefits, such as ready access to
funding in national markets when core deposit growth in local markets lags planned asset
growth. However, non-core funding sources also present potential risks, such as higher costs
and increased volatility. According to the Examination Manual, placing heavy reliance on
potentially volatile funding sources to support asset growth is risky because access to these
funds may become limited during distressed financial or economic conditions. Under such
circumstances, institutions could be required to sell assets at a loss in order to fund deposit
withdrawals and other liquidity needs. According to the Examination Manual, potential red
flags that may indicate the need for examiners to take action to ensure that the risks
associated with brokered or other rate sensitive funding sources are managed appropriately
include, but are not limited to, significant funding shifts from traditional funding sources and
the absence of adequate policy limitations on these kinds of funding sources.

With the exception of the June 2005 Evans examination, examiners considered Colonial’s,
Evans’, and Arvada’s liquidity position to be satisfactory or better, as evidenced by the “1” or
“2” ratings assigned to Liquidity. Table 7 references concerns raised by examiners in
examination reports issued between 2004 and 2011 regarding the institutions’ liquidity risk
management practices, including their use of non-core funding. BOC was assigned a
Liquidity rating of “4” at the November 2008 examination, and examiners further
downgraded Liquidity to a “5” rating at the November 2009 examination.



                                                 I-24
Implementation of PCA

Section 38 of the FDI Act, Prompt Corrective Action, establishes a framework of mandatory
and discretionary supervisory actions pertaining to all institutions. The section requires
regulators to take progressively more severe actions, known as “prompt corrective actions,”
as an institution’s capital level deteriorates. The purpose of section 38 is to resolve the
problems of insured depository institutions at the least possible cost to the DIF. Part 325,
Capital Maintenance, of the FDIC Rules and Regulations defines the capital measures used
in determining the supervisory actions that will be taken pursuant to section 38 for FDIC-
supervised institutions. Part 325 also establishes procedures for the submission and review of
capital restoration plans and for the issuance of directives and orders pursuant to
section 38. The FDIC is required to closely monitor the institution’s compliance with its
capital restoration plan (CRP), mandatory restrictions defined under section 38(e), and
discretionary safeguards imposed by the FDIC (if any) to determine if the purposes of PCA
are being achieved.

Based on the supervisory actions taken with respect to BOC, the FDIC properly implemented
the applicable PCA provisions of section 38. BOC was considered Well Capitalized or
Adequately Capitalized for PCA purposes until December 31, 2010, at which point the
institution’s condition had already seriously deteriorated. In that regard, capital levels were a
lagging indicator of the inherent risks in the loan portfolio. Table 9 illustrates the capital
ratios of BOC and its predecessor banks relative to the PCA thresholds for Well Capitalized
institutions during examinations and at other key points in time. A chronological description
of the changes in the banks’ capital categories and the FDIC’s implementation of PCA follow
the table.




                                             I-25
Table 9: Summary of Capital Level Categories for Colonial, Evans, Arvada, and BOC
  Bank       Examination        As of Date      Total       Tier 1     Leverage        PCA Capital Category
             or Event Date                      Risk-       Risk-
                                                Based       Based
         Well Capitalized Threshold              ≥10%        ≥6%          ≥5%
              7/24/2006
Colonial                        3/31/2006        13.03      12.11         8.88            Well Capitalized
             Examination
              5/30/2006
 Evans                          3/31/2006        10.43       9.46         8.34            Well Capitalized
             Examination
              10/1/2007
 Evans                          6/30/2007        10.09       9.16         8.45            Well Capitalized
             Examination
             11/27/2006
 Arvada                         9/30/2006        10.56       9.39         8.70            Well Capitalized
             Examination
              2/19/2008
 Arvada                         12/31/2007       10.08       9.25         8.41            Well Capitalized
             Examination
              11/10/2008
  BOC                           9/30/2008        10.54       9.94         8.94            Well Capitalized
              Examination
              11/23/2009
  BOC                           9/30/2009        9.54        8.27         6.66         Adequately Capitalized
              Examination
               1/25/2011
  BOC             PCA
                                                                                           Significantly
              Notification      12/31/2010       N/A         N/A         2.31*
                                                                                          Undercapitalized
               3/14/2011
  BOC
             PCA Directive
               4/28/2011
                  PCA         12/31/2010**       4.56        3.28         1.96       Critically Undercapitalized
  BOC
              Notification
Source: KPMG analysis of examination reports for Colonial, Evans, Arvada, and BOC.
* Data source is the capital plan submitted by the bank on January 20, 2011. Once the leverage ratio fell below 3
percent, BOC became Significantly Undercapitalized.
** Capital ratios as of 12/31/10 were recalculated by examiners based on the results of the 1/18/2011 joint
examination. BOC became Critically Undercapitalized when its tangible equity to total assets ratio went below
2 percent.

BOC was considered Well Capitalized for PCA purposes until the November 2009 joint
examination, at which time the bank fell to Adequately Capitalized based on the results of the
examination. Before falling to Adequately Capitalized, BOC entered into an MOU with the
FDIC and CDB, effective February 19, 2009, requiring the bank to submit a capital plan to
increase capital. Although BOC submitted a capital plan to the FDIC on April 27, 2009,
examiners subsequently determined that the plan did not include an expressed determination
by the Board of the minimum level of capital to be maintained by the bank.

According to the bank’s Call Report data, BOC returned to a Well Capitalized position for
PCA purposes as of December 31, 2009; however, the bank fell back to Adequately
Capitalized as a result of the May 2010 Order. Based on the results of the November 2009
joint examination, the FDIC issued an Order effective May 6, 2010, requiring BOC to submit
a written capital plan within 60 days to achieve a Tier 1 Capital ratio of 9 percent or more and
a Total Risk Based Capital ratio of 13 percent or more. The bank submitted a capital plan on
July 2, 2010. In a letter dated July 28, 2010, the FDIC and CDB notified BOC that the plan


                                                     I-26
was not acceptable because it did not achieve the minimum capital ratios contained in the
Order, nor did it include the required detailed contingency plan for selling the bank. The
FDIC requested a revised capital plan by August 30, 2010. BOC submitted a revised capital
plan on August 27, 2010. In a letter dated September 10, 2010, the FDIC notified the bank
that the revised capital plan was not acceptable because it failed to obtain the Order’s capital
ratios in a reasonable time period. The letter requested another revised capital plan by
October 15, 2010.

BOC requested, and was granted, an extension for a revised capital plan until November 1,
2010. Although the bank submitted a revised capital plan by that date, the FDIC determined
that it was not acceptable because it failed to provide for a timely capital injection in order for
the bank to achieve and maintain the Order’s capital ratios. The FDIC requested that the
bank provide a revised capital plan by December 6, 2010. The bank submitted a revised
capital plan on December 6, 2010. The FDIC found this plan to be acceptable contingent
upon management submitting an addendum that quantified the amount of expected losses and
the total capital necessary to restore the bank to a satisfactory condition by March 31, 2011.
Although the bank submitted the requested addendum on December 23, 2010, the FDIC and
CDB determined that the addendum did not include all of the previously requested
information. In a letter dated January 13, 2011, the FDIC requested that the bank provide a
more comprehensive capital plan by February 15, 2011.

The bank submitted a Revised Bank of Choice Combined Strategic and Capital Plan on
January 20, 2011. In a letter dated January 25, 2011, the FDIC notified BOC’s Board that it
was Significantly Undercapitalized based on the December 31, 2010 Tier 1 Capital ratio of
2.31 percent submitted in the Revised Bank of Choice Combined Strategic and Capital Plan.
The letter notified management that the bank was subject to the relevant mandatory
requirements of section 38 of the FDI Act, including the submission of a CRP by March 11,
2011 and restrictions on asset growth, acquisitions, new activities, new branches, payment of
dividends or making any other capital distribution, or management fees. The FDIC notified
the bank on February 23, 2011 that the Revised Bank of Choice Combined Strategic and
Capital Plan was not acceptable as it did not demonstrate that the bank would either be
recapitalized or sold within a reasonable period of time.

BOC submitted a CRP on March 11, 2011. In a letter dated March 14, 2011, the FDIC
notified the bank that the plan was unacceptable because it lacked a holding company
guarantee, did not provide a plan to recapitalize the bank absent selling the bank to an
undisclosed buyer, and lacked substantive information to determine if it complied with the
requirements of section 38(e)(2)(B) of the FDI Act.7 Due to BOC’s Significantly
Undercapitalized status and failure to submit an acceptable CRP, the bank was subject to
additional mandatory restrictions and actions embodied in section 38(f) of the FDI Act.
Consequently, the FDIC issued a PCA Directive on March 14, 2011, which included
provisions that required the bank to take certain actions including, but not limited to:

7
  Section 38(e)(2)(B) of the FDI Act specifies that the CRP shall specify the steps the insured depository
institution will take to become adequately capitalized, the levels of capital to be attained during each year the
plan will be in effect, how the institution will comply with the restrictions or requirements then in effect, and the
types and levels of activities in which the institution will engage.


                                                       I-27
      recapitalizing the bank within 30 days;

      submitting an acceptable capital restoration plan by March 28, 2011;

      restricting interest rates paid on deposits;

      refraining from accepting, renewing, or rolling over any brokered deposits; and

      refraining from making any capital distributions or dividend payments to its parent or
       any affiliate.

The bank submitted a CRP on April 8, 2011, and, in a letter dated April 21, 2011, the FDIC
informed BOC that the plan was not acceptable because it did not contain all required
information, including a signed guarantee from BOCHC. Although this CRP was received
11 days after the March 28, 2011 due date, the bank was already subject to section 38(f) of
the FDI Act, which applies to both Significantly Undercapitalized and Undercapitalized
institutions that fail to submit a timely CRP. The FDIC requested a revised CRP by May 15,
2011. We did not find any evidence that BOC submitted a revised CRP.

In the transmittal letter for the January 2011 joint examination report, dated April 28, 2011,
the FDIC notified the bank that it was Critically Undercapitalized. Bank management
pursued a number of avenues to raise equity capital, including the retention of a third-party
investment advisor. Several private equity groups and banks were identified for potential
investments or mergers. However, given the bank’s distressed financial condition, timely
access to substantial capital funds appeared unlikely. Efforts to raise equity capital were
ultimately unsuccessful, and the bank was closed on July 22, 2011.

Supervisory Lessons Learned

The perspectives gained from the failure of BOC are not unique. Like many other institutions
that failed in recent years, BOC’s predecessor banks developed a significant exposure to CRE
and ADC loans at a time when the banks’ financial conditions and lending markets were
generally favorable. This exposure made the banks (and subsequently BOC) vulnerable to a
sustained downturn in the real estate market. In retrospect, a more forward-looking
supervisory approach to the risk profile and management practices at Colonial, Evans, and
Arvada during examinations conducted from 2006 to 2008 may have been prudent
considering their:

      significant exposure to CRE and ADC loans and the associated vulnerability to
       economic cycles;

      reliance on non-core funding sources to support loan growth and operations;

      capital levels in some periods that were just above the PCA threshold for a Well
       Capitalized institution despite an elevated risk profile; and



                                              I-28
       inadequate responsiveness to repeated examiner concerns regarding the banks’ risk
        management practices.

A stronger supervisory tenor during earlier examinations may have influenced BOC’s
predecessor banks to implement stronger risk management practices, such as prudent limits
on their CRE and ADC loan concentrations and/or higher levels of capital, which could have
better positioned BOC to work through the loan deterioration that developed as the Colorado
real estate market deteriorated. In addition, it is our view that while earlier composite and
component ratings in the areas of Management, Asset Quality, Liquidity, and Capital
reflected the financial condition of BOC’s predecessor banks, the ratings did not appear to
fully reflect the risks present in the banks at that time. Examiners became sharply critical of
BOC’s risk management practices beginning with the November 2008 FDIC examination and
issued joint supervisory and enforcement actions in 2009 and 2010, respectively. However,
by that time, the bank’s lending markets were rapidly deteriorating, making remedial efforts
difficult.

In December 2010, the OIG issued an audit report, entitled, Follow-up Audit of FDIC
Supervision Program Enhancements for the purpose of identifying trends in recent bank
failures and determining the FDIC’s actions to enhance its supervision program. The audit
report notes that CAMELS ratings assigned to failed institutions placed greater emphasis on a
bank’s financial condition at the time of the examination and levels of capital and earnings,
rather than the bank’s ability to successfully mitigate identified risks.8 The audit report
further states that risky behaviors that did not seem to have had a sufficient impact on
CAMELS ratings included, but were not limited to: (1) the pursuit of aggressive growth in
CRE and ADC loans, (2) excessive levels of asset concentration with little risk mitigation,
and (3) reliance on wholesale funding to support asset growth. Such findings are consistent
with the results of our assessment of the supervisory approach for BOC’s predecessor banks.

The FDIC informed us that it has taken a number of actions to enhance its supervision
program based on the lessons learned from failures during the financial crisis. With respect
to the issues discussed in this report, the FDIC has, among other things, issued FIL-22-2008,
Managing CRE Concentrations in a Challenging Environment, which reiterated broad
supervisory expectations with regard to managing risk associated with CRE and ADC
concentrations. Specifically, the guidance re-emphasized the importance of strong capital
and loan loss allowance levels and robust credit risk management practices. The FDIC has
also issued FIL-84-2008, entitled, Liquidity Risk Management, which highlights the
importance of (among other things) contingency funding plans in addressing relevant stress
events. Further, as noted earlier in the report, the FDIC issued FIL-13-2009, The Use of
Volatile or Special Funding Sources by Financial Institutions That are in a Weakened
Condition, which indicated that institutions with aggressive growth strategies or excessive
reliance on volatile funding sources are subject to heightened supervisory monitoring.

Additionally, the FDIC completed a training initiative in 2010 for its entire supervisory
workforce that emphasized the need to assess a bank’s risk profile using forward-looking

8
  Report No. MLR-11-010. The objectives of the December 2010 Audit Report are discussed in Appendix 1 of
this report.


                                                 I-29
supervision. The training addressed the importance of considering management practices as
well as current financial performance or trends when assigning ratings, consistent with
existing examination guidance. Further, on January 26, 2010, the FDIC issued guidance to its
examiners that defines procedures for better ensuring that examiner concerns and
recommendations are appropriately tracked and addressed.9




9
 RMS Regional Directors Memorandum entitled, Matters Requiring Board Attention (Transmittal No. 2010-
003).


                                                 I-30
                                                                            Appendix 1


                   Objectives, Scope, and Methodology

Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, as amended by
the Financial Reform Act, which provides, in general, that if the DIF incurs a material
loss with respect to an insured depository institution, the Inspector General of the
appropriate Federal banking agency shall prepare a report to that agency, reviewing the
agency’s supervision of the institution. The Financial Reform Act amends section 38(k)
of the FDI Act by increasing the MLR threshold from $25 million to $200 million for
losses that occur for the period January 1, 2010 through December 31, 2011. The FDI
Act requires that the report be completed within six months after it becomes apparent that
a material loss has been incurred.

Consistent with the Financial Reform and FDI Act provisions described above, the
objectives of this MLR were to (1) determine the causes of BOC’s failure and the
resulting loss to the DIF and (2) evaluate the FDIC’s supervision of BOC, including the
FDIC’s implementation of the PCA provisions of section 38 of the FDI Act.

We conducted this performance audit from October 2011 to January 2012 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Scope and Methodology

The scope of this audit included an analysis of BOC and its predecessor banks from 2004
until BOC’s failure on July 22, 2011. Our review also entailed an evaluation of the
regulatory supervision of the institutions over the same period.

To achieve the objectives, we performed the following procedures and utilized the
following techniques:

      Analyzed examination and visitation reports prepared by FDIC and CDB
       examiners from 2004 to 2011.

      Reviewed the following documentation:

          Financial institution data and correspondence maintained at the RMS Dallas
           Regional Office and Denver Field Office, as provided to KPMG by RMS.

          Reports prepared by the Division of Resolutions and Receiverships and RMS
           relating to BOC’s closure.


                                            I-31
                                                                                Appendix 1

            Pertinent RMS policies and procedures.

        Interviewed relevant FDIC officials who had supervisory responsibilities
         pertaining to BOC and its predecessor banks, which included RMS regional
         officials from the Dallas Regional Office and examination staff at the Denver
         Field Office.

        Interviewed appropriate officials from the CDB to discuss the historical
         perspectives of the institutions, applicable examinations, and other activities
         regarding the CDB’s supervision of the banks.

        Researched various banking laws and regulations.

KPMG relied primarily upon the materials provided by the FDIC OIG and RMS,
including information and other data collected during interviews. KPMG did not perform
specific audit procedures to ensure the information and data were complete and accurate.
KPMG is, however, aware that Circular 12000.1, Cooperation with the Office of
Inspector General, dated September 28, 2007, requires that all FDIC employees,
contractors, and subcontractors cooperate with the OIG in order for the OIG to carry out
its statutory mandate. To that end, all employees, contractors, and subcontractors must:

       (1) Provide authorized representatives of the OIG immediate and unrestricted access
       to all Corporation, receivership, contractor, and subcontractor personnel, facilities,
       equipment, hard copy and electronic records, files, information systems, and other
       sources of information when requested during the course of their official duties.

       (2) Provide authorized representatives of the OIG immediate and unrestricted access
       to any records or material available to any part of the FDIC.

Interviews were conducted to gain a better understanding of the decisions made regarding
the supervisory approach for BOC and its predecessor institutions and to clarify
information and conclusions contained in examination reports and other relevant
supervisory correspondence between the FDIC, the CDB, and the banks. KPMG relied
on the information provided in the interviews without conducting additional specific
audit procedures to test such information.

Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess RMS’s overall internal control or
management control structure. We relied on information in the FDIC’s systems, reports,
and interviews of examiners to understand the banks’ management controls pertaining to
the causes of failure and material loss as discussed in the body of this report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the



                                               I-32
                                                                              Appendix 1

effectiveness of information system controls. We relied on our analysis of information
from various sources, including examination and visitation reports, correspondence files,
and testimonial evidence to corroborate data obtained from systems that were used to
support our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this MLR, we did not assess the strengths and weaknesses
of RMS’s annual performance plan in meeting the requirements of the Results Act
because such an assessment is not part of the audit objectives. RMS compliance with the
Results Act is reviewed in OIG’s program audits of RMS operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with relevant provisions of section 38 of the FDI Act
and limited tests to determine compliance with certain other aspects of the FDI Act and
the FDIC’s Rules and Regulations. The results of our tests are discussed, where
appropriate, in this report. Additionally, we assessed the risk of fraud and abuse related
to our objectives in the course of evaluating audit evidence.

Related Coverage of Financial Institution Failures

The FDIC provided us with a memorandum issued by the OIG on May 1, 2009. The
memorandum outlined major causes, trends, and common characteristics of FDIC-
supervised financial institution failures that had resulted in a material loss to the DIF.
The memorandum also indicated that the OIG planned to provide more comprehensive
coverage of those issues and make related recommendations, when appropriate. Since
May 1, 2009, the OIG has issued additional MLR reports related to failures of FDIC-
supervised institutions, and these reports can be found at www.fdicig.gov. In addition, as
mentioned earlier in the report, the OIG issued an audit report, entitled, Follow-up Audit
of FDIC Supervision Program Enhancements (Report No. MLR-11-010), in December
2010. The objectives of the audit were to (1) determine the actions that the FDIC has
taken to enhance its supervision program since May 2009, including those specifically in
response to the May 2009 memorandum, and (2) identify trends and issues that have
emerged from subsequent MLRs.

Further, with respect to more in-depth coverage of specific issues, the OIGs of the FDIC,
the Department of the Treasury, and the Board of Governors of the Federal Reserve
System issued an evaluation report in September 2011, entitled, Evaluation of Prompt
Regulatory Action Implementation (Report No. EVAL-11-006), which assessed the role
and Federal regulators’ use of the Prompt Regulatory Action provisions of the FDI Act
(section 38, PCA, and section 39, Standards for Safety and Soundness) in the banking
crisis.

Additionally, the FDIC OIG has informed us that it began an evaluation in July 2011 to
study the characteristics and related supervisory approaches that may have prevented



                                             I-33
                                                                             Appendix 1

FDIC-supervised institutions with significant ADC loan concentrations from being
designated as problem banks or failing during the recent financial crisis. Most recently,
in January 2012, the President signed Public Law 112-88 (H.R. 2056, as amended),
which requires the Inspector General of the FDIC to conduct a comprehensive study on
the impact of the failure of insured depository institutions. Among the reviews initiated
in response to this law, the FDIC OIG has initiated reviews in the following areas of bank
supervision:

          evaluation and use of appraisals,
          implementation of FDIC policy statement on CRE loan workouts,
          risk management enforcement actions, and
          examiner assessment of capital.

The Inspector General is required to submit a report on the results of the study and any
related recommendations to Congress by January 3, 2013.




                                            I-34
                                                                              Appendix 2


                            Glossary of Terms


          Term                                         Definition
Acquisition,               ADC loans are a component of CRE that provide funding for
Development, and           acquiring and developing land for future construction, and that
Construction               provide interim financing for constructing residential or
(ADC) Loans                commercial structures.

Adversely Classified       Assets subject to criticism and/or comment in an examination
Assets                     report. Adversely classified assets are allocated on the basis of risk
                           (lowest to highest) into three categories: Substandard, Doubtful,
                           and Loss.

Allowance for Loan and     Federally insured depository institutions must maintain an ALLL
Lease Losses (ALLL)        that is adequate to absorb the estimated loan losses associated with
                           the loan and lease portfolio (including all binding commitments to
                           lend). To the extent not provided for in a separate liability
                           account, the ALLL should also be sufficient to absorb estimated
                           loan losses associated with off-balance sheet loan instruments such
                           as standby letters of credit.

Call Report                Consolidated Reports of Condition and Income (also known as
                           Call Reports) are reports that are required to be filed by every
                           national bank, state member bank, and insured nonmember bank
                           pursuant to the FDI Act. These reports are used to calculate
                           deposit insurance assessments and monitor the condition,
                           performance, and risk profile of individual banks and the banking
                           industry.

Capital Restoration Plan   Section 325.104(a)(1) of the FDIC Rules and Regulations requires
(CRP)                      a bank to file a written CRP with the appropriate FDIC regional
                           director within 45 days of the date that the bank receives notice or
                           is deemed to have notice that the bank is Undercapitalized,
                           Significantly Undercapitalized, or Critically Undercapitalized,
                           unless the FDIC notifies the bank in writing that the plan is to be
                           filed within a different period.

Commercial Real Estate     CRE loans include loans secured by multifamily property and
(CRE) Loans                nonfarm nonresidential property, where the primary source of
                           repayment is derived from rental income associated with the
                           property or the proceeds of the sale, refinancing, or permanent
                           financing of the property. CRE loans also include land
                           development and construction loans (including 1-to-4 family
                           residential and commercial construction loans) and other land
                           loans.




                                          I-35
                                                                          Appendix 2


         Term                                         Definition
Concentration          A concentration is a significantly large volume of economically
                       related assets that an institution has advanced or committed to a
                       certain industry, person, entity, or affiliated group. These assets
                       may, in the aggregate, present a substantial risk to the safety and
                       soundness of the institution.
Consent Order          A formal enforcement action issued by financial institution
                       regulators to a bank or affiliated party to stop an unsafe or unsound
                       practice or violation. A Consent Order may be terminated by the
                       regulators when they have determined that the bank’s condition
                       has significantly improved and the action is no longer needed or
                       the bank has materially complied with its terms.
Federal Home Loan      The FHLB System provides liquidity to member institutions that
Bank (FHLB) Advances   hold mortgages in their portfolios and facilitates the financing of
                       mortgages by making low-cost loans, called advances, to its
                       members. Advances are funds that are available to members with
                       a wide variety of terms to maturity, from overnight to long term,
                       and are collateralized. Advances are designed to prevent any
                       possible loss to FHLBs, which also have a super lien (a lien
                       senior or superior to all current and future liens on a property or
                       asset) when institutions fail.
Global Cash Flow       A global cash flow analysis is a comprehensive evaluation of
Analysis               borrower capacity to perform on a loan. During underwriting,
                       proper global cash flow analysis must thoroughly analyze
                       projected cash flow and guarantor support. Beyond the individual
                       loan, global cash flow must consider all other relevant factors,
                       including: guarantor’s related debt at other financial institutions,
                       current and complete operating statements of all related entities,
                       and future economic conditions. In addition, global cash flow
                       analysis should be routinely conducted as a part of credit
                       administration. The extent and frequency of global cash flow
                       analysis should be commensurate to the amount of risk associated
                       with the particular loan.
Material Loss          As defined by section 38(k)(2)(B) of the FDI Act, as amended by
                       the Dodd-Frank Wall Street Reform and Consumer Protection Act,
                       for the period beginning January 1, 2010 and ending December 31,
                       2011, a material loss is defined as any estimated loss to the DIF in
                       excess of $200 million.

Memorandum of          A Memorandum of Understanding is an informal agreement
Understanding (MOU)    between the institution and the FDIC, which is signed by both
                       parties. The State Banking Authority may also be party to the
                       agreement. MOUs are designed to address and correct identified
                       weaknesses in an institution’s condition.




                                      I-36
                                                                              Appendix 2


         Term                                           Definition
Offsite Review             The FDIC’s Offsite Review Program is designed to identify a
Program                    bank’s emerging supervisory concerns and potential problems so
                           that supervisory strategies can be adjusted appropriately. Offsite
                           reviews are performed quarterly for each bank that appears on the
                           ORL. Regional management is responsible for implementing
                           procedures to ensure that offsite review findings are factored into
                           examination schedules and other supervisory activities.
Peer Group                 Institutions are assigned to 1 of 15 peer groups based on asset size,
                           number of branches, and whether the institution is located in a
                           metropolitan or non-metropolitan area.


Prompt Corrective          The purpose of PCA is to resolve the problems of insured
Action (PCA)               depository institutions at the least possible long-term cost to the
                           Deposit Insurance Fund. Part 325, subpart B, of the FDIC Rules
                           and Regulations, 12 Code of Federal Regulations, section 325.101,
                           et. seq., implements section 38, Prompt Corrective Action, of the
                           FDI Act, 12 United States Code Section 1831(o), by establishing a
                           framework for determining capital adequacy and taking
                           supervisory actions against depository institutions that are in an
                           unsafe or unsound condition. The following terms are used to
                           describe capital adequacy: (1) Well Capitalized, (2) Adequately
                           Capitalized, (3) Undercapitalized, (4) Significantly
                           Undercapitalized, and (5) Critically Undercapitalized.

                           A PCA Directive is a formal enforcement action seeking corrective
                           action or compliance with the PCA statute with respect to an
                           institution that falls within any of the three categories of
                           undercapitalized institutions.


Risk-Based Capital         A “supplemental” capital standard under Part 325 of the FDIC
                           Rules and Regulations. Under the risk-based framework, a bank’s
                           qualifying total capital base consists of two types of capital
                           elements, “core capital” (Tier 1) and “supplementary capital”
                           (Tier 2).
Risk-Based Capital Rules   Appendix A to Part 325—Statement of Policy on Risk-Based
                           Capital—defines the FDIC’s risk-based capital rules. Appendix A
                           states that an institution’s balance sheet assets and credit
                           equivalent amounts of off-balance sheet items are assigned to
                           broad risk categories according to the obligor or, if relevant, the
                           guarantor or the nature of the collateral. The aggregate dollar
                           amount in each category is then multiplied by the risk weight
                           assigned to that category. The resulting weighted values from
                           each of the four risk categories are added together, and this sum is
                           the risk-weighted assets total that, as adjusted, comprises the
                           denominator of the risk-based capital ratio. The institution’s
                           qualifying total capital base is the numerator of the ratio.



                                          I-37
                                                                         Appendix 2


          Term                                      Definition
Tier 1 Capital        Defined in Part 325 of the FDIC Rules and Regulations, 12 Code
                      of Federal Regulations, section 325.2(v), as
                      The sum of:
                      • Common stockholder’s equity (common stock and related
                      surplus, undivided profits, disclosed capital reserves, foreign
                      currency translation adjustments, less net unrealized losses on
                      available-for-sale securities with readily determinable market
                      values);
                      • Non-cumulative perpetual preferred stock; and
                      • Minority interest in consolidated subsidiaries;
                      Minus:
                      • Certain intangible assets;
                      • Identified losses;
                      • Investments in securities subsidiaries subject to section 337.4; and
                      • Deferred tax assets in excess of the limit set forth in section
                      325.5(g).
Trust Preferred       Hybrid instruments possessing characteristics typically associated
Securities            with debt obligations. Under the basic structure of trust preferred
                      securities, a corporate issuer, such as a bank holding company, first
                      organizes a business trust or other special purpose entity. This
                      trust issues two classes of securities: common securities, all of
                      which are purchased and held by the corporate issuer, and trust
                      preferred securities, which are sold to investors. The business
                      trust’s only assets are deeply subordinated debentures of the
                      corporate issuer, which the trust purchases with the proceeds from
                      the sale of its common and preferred securities. The corporate
                      issuer makes periodic interest payments on the subordinated
                      debentures to the business trust, which uses these payments to pay
                      periodic dividends on the trust preferred securities to the investors.
                      The subordinated debentures have a stated maturity and may also
                      be redeemed under other circumstances. Most trust preferred
                      securities are subject to a mandatory redemption upon the
                      repayment of the debentures.
Uniform Bank          The UBPR is an analysis of financial institution financial data and
Performance Report    ratios that includes extensive comparisons to peer group
(UBPR)                performance. The report is produced by the Federal Financial
                      Institutions Examination Council for the use of banking
                      supervisors, bankers, and the general public and is produced
                      quarterly from Call Report data submitted by banks.

Uniform Financial     Financial institution regulators and examiners use the UFIRS to
Institutions Rating   evaluate a bank’s performance in six components represented by
System (UFIRS)        the CAMELS acronym: Capital adequacy, Asset quality,
                      Management practices, Earnings performance, Liquidity position,
                      and Sensitivity to market risk. Each component, and an overall
                      composite, is assigned a rating of “1” through “5”, with “1” having
                      the least regulatory concern and “5” having the greatest concern.




                                     I-38
                                                                       Appendix 3


                                  Acronyms

ADC      Acquisition, Development, and Construction
ALLL     Allowance for Loan and Lease Losses
ALM      Asset Liability Management
BOC      Bank of Choice
BOCHC    Bank of Choice Holding Company
C&D      Cease and Desist Order
CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and Sensitivity to Market Risk
CD       Certificate of Deposit
CFP      Contingency Funding Plan
CMP      Civil Money Penalty
CDB      Colorado Division of Banking
CEO      Chief Executive Officer
COB      Chairman of the Board
CRE      Commercial Real Estate
CRP      Capital Restoration Plan
DIF      Deposit Insurance Fund
FDI      Federal Deposit Insurance
FHLB     Federal Home Loan Bank
FIL      Financial Institution Letter
GAGAS    Generally Accepted Government Auditing Standards
GMS      Growth Monitoring System
MLR      Material Loss Review
MOU      Memorandum of Understanding
OCC      Office of the Comptroller of the Currency
OIG      Office of Inspector General
ORL      Offsite Review List
PCA      Prompt Corrective Action
REST     Real Estate Stress Test
RMS      Division of Risk Management Supervision
SCOR     Statistical CAMELS Offsite Rating
UBPR     Uniform Bank Performance Report
UFIRS    Uniform Financial Institutions Rating System




                                       I-39
               Part II

OIG Evaluation of Management Response
OIG Evaluation of Management Response
Subsequent to the issuance of KPMG’s draft report, RMS officials provided additional
information for KPMG’s consideration, and KPMG revised its report to reflect this
information, as appropriate. On February 16, 2012, the RMS Director provided a written
response to a draft of this report. That response is provided in its entirety on page II-2 of
this report.

In the response, the RMS Director reiterated the causes of BOC’s failure and the
supervisory activities described in the report. Further, RMS stated that it has recognized
the threat that institutions with high-risk profiles, such as BOC, pose to the DIF and
issued to FDIC-supervised institutions a 2008 FIL, entitled, Managing Commercial Real
Estate Concentrations in a Challenging Environment. This FIL re-emphasized the
importance of robust credit risk management practices for institutions with concentrated
CRE exposures and set forth broad supervisory expectations. Additionally, RMS issued a
2009 FIL, entitled, The Use of Volatile or Special Funding Sources by Financial
Institutions That are in a Weakened Condition. According to RMS, this FIL heightened
its supervision of institutions with aggressive growth strategies or excessive reliance on
volatile funding sources.




                                             II-1
                  CORPORATION COMMENTS
_____________________________________________________________




Federal Deposit Insurance Corporation
550 17th Street NW, Washington, D.C. 20429-9990                                 Division of Risk Management Supervision

                                                                                         February 16, 2012

TO:                  Stephen M. Beard
                     Deputy Inspector General for Audits and Evaluations

                        /Signed/
FROM:                Sandra L. Thompson
                     Director

SUBJECT:             FDIC Response to the Draft Audit Report Entitled, Material Loss Review of Bank
                     of Choice, Greeley, Colorado (Assignment No. 2011-097)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act, and as amended by the Dodd-Frank
Wall Street Reform and Consumer Protection Act, the Federal Deposit Insurance Corporation’s
(FDIC) Office of Inspector General (OIG) conducted a Material Loss Review of Bank of Choice
(BOC), which failed on July 22, 2011. This memorandum is the response of the Division of Risk
Management Supervision (RMS) to the OIG’s Draft Report received on January 13, 2012.

BOC failed due to the inability of the Boards and management of BOC and its predecessor
institutions to manage the risks associated with a strategy centered on concentrations of commercial
real estate (CRE) and acquisition, development, and construction (ADC) loans. The Boards and
management did not establish risk exposure limits. BOC’s lax oversight of the lending function,
coupled with weak CRE markets in Colorado, also contributed to the deterioration in the quality of
its loan portfolio, resulting in substantial losses. Dependence on noncore funding further elevated
BOC’s risk profile. The associated provisions for loan losses depleted BOC’s earnings, eroded its
capital and strained its liquidity. BOC was unable to raise additional capital to maintain safe and
sound operations.

From 2006 through June 2011, the FDIC and the Colorado Division of Banking (CDB) conducted
eight risk management examinations, three visitations and ongoing offsite monitoring. Examiners
identified risks in the banks’ operations and brought these risks to the attention of the institutions’
Boards and management. At the November 2008 FDIC examination, examiners strongly criticized
BOC’s deficient risk management practices noting deterioration in all component ratings, and BOC
was downgraded. A Memorandum of Understanding was issued in 2009 to address examination
weaknesses; however, BOC management failed to implement appropriate corrective actions. As
BOC continued to deteriorate further, examiners downgraded BOC and issued a Consent Order on
May 6, 2010.

RMS has recognized the threat that institutions with high risk profiles, such as BOC, pose to the
Deposit Insurance Fund and issued to FDIC-supervised institutions a 2008 Financial Institution
Letter (FIL) entitled, Managing Commercial Real Estate Concentrations in a Challenging
Environment. This FIL re-emphasized the importance of robust credit risk management practices
for institutions with concentrated CRE exposures and set forth broad supervisory expectations.
Additionally, RMS issued a 2009 FIL entitled, The Use of Volatile or Special Funding Sources by
Financial Institutions that are in a Weakened Condition. This FIL heightened our supervision of
institutions with aggressive growth strategies or excessive reliance on volatile funding sources.

Thank you for the opportunity to review and comment on the Report.



                                                   II-2
